Ss
I

C@OQCKLE

2311 Douglas Street :
Omaha, Nebraska 68102-1214 Lega 1B J
sta

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

Nos. 19-1257, 19-1258

MARK BRNOVICH, in his Official Capacity
as Arizona Attorney General, et al.,

Petitioners,
v.

DEMOCRATIC NATIONAL COMMITTEE, et al.,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
ELECTION INTEGRITY PROJECT CALIFORNIA, INC. AND ELECTION INTEGRITY
PROJECT ARIZONA, LLC IN SUPPORT OF PETITIONERS in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century :
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 4974 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of December, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

fea tmtess. NOTARY-State of Hebraska
RENEE J. GOSS
fea tmtess. Exp. September 5, 2023

Notary Public

Boas Oudreaw-h. Gh

40316
